WAIVER

SUPREME COURT OF THE UNITED STATES

 

Supreme Court Case No. 19-919
Joseph Becker, et al. , Ralph S. Janvey, et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

= There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Ralph S. Janvey, in his Capacity as Court-Appointed Receiver
for Stanford International Bank, Ltd., et al.

 

 

= I ama member of the Bar of the Supreme Court of the United States.

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

Signature AM ull
February 10, 2020
Kevin M. Sadler

= Mr. Ms. Mrs. Miss

Baker Botts LLP

1001 Page Mill Rd Building One, Suite 200

city & State Palo Alto, CA rip 94304

ne 090-739-7500 mai KeVin.sadler@bakerbotts.com

 

Date:

 

(Type or print) Name

 

Firm

 

Address

 

 

Pho: E

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Phillip W. Preis
